'11

2311 Douglas Street
Omaha, Nebraska 68102-1214

OCKLE

E-Mail Address:
contact®cocklelegalbriefs.cona

L egal B riefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No_
DAMON SIMON; PATRICE SIMON,
Petitioners,
v.
ROCHE DIAGNOSTICS CORPORATION,
Respondent
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of October, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
TIMOTHY A. HOOTMAN
Counsel of Record for Petitioners
2402 Pease St.
Houston, TX 77003
713.366.6229 (cell)
713.247.9548 (office)
thootman2000@yahoo.com
Counsel for Petitioners

Subscribed and sworn to before me this 6th day of October, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September.5, 2023

Notary Public

Affiant

41387

Sherman Vance Wittie
Faegre Drinker Biddle & Reath LLP
1717 Main Street, Suite 5400
Dallas, Texas 75201
469.357.2537
vance.wittie@faegredrinker.com
Nicholas B. Alford
Faegre Drinker Biddle & Reath LLP
200 N. Meridian Street, Suite 2500
Indianapolis, Indiana 46204
nicholas.faegredrinker.com
Attorneys for Roche Diagnostics Corporation

